@ BECKER GALLAGHER Supreme Court of the United States

Briefs and Records " United States Courts of Appeals

CERTIFICATE OF SERVICE

I, Brett Griffis, hereby certify that 1 unbound and
40 copies of the foregoing Brief for Respondents-Cross
Petitioners Neill Hurley and John Nantz and 19-1019
Texas, et al. v. California, et al., were sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day Service and e-mail to the
following parties listed below, this 25th day of June,
2020:

Samuel Passchier Siegel
California Department of Justice
1300 I Street

Sacramento, CA 95814

(916) 210-6269
sam.siegel@doj.ca.gov

Counsel for Petitioners
California, et al.

Noel J. Francisco

Solicitor General

United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for United States, et al.

Becker GALLAGHER LEGAL PUBLISHING INCORPORATED 8790 Governor's Hill Drive Franklin Square
(800) 890.5001 Suite 102 1300 | Street, NW, Suite 400E
www.beckergallagher.com Cincinnati, Ohio 45249 Washington, DC 20005
Kyle Douglas Hawkins

Texas Attorney General’s Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kyle.hawkins@oag.texas.gov
(512) 936-1700

Counsel for Respondents
State of Texas, et al.

Douglas Neal Letter

219 Cannon House Office Building
Washington, DC 20515

(202) 225-9700
douglas.letter@mail.house.gov

Counsel for United States House of Representatives

Robert Henneke
Counsel of Record
Munera Al-Fuhaid
J. Aaron Barnes
Texas Public Policy Foundation
901 Congress Avenue
Austin, TX 78701
(512) 472-2700
rhenneke@texaspolicy.com

Tyler R. Green

Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700

Arlington, VA 22209

(7038) 243-9423
tyler@consovoymecarthy.com

Counsel for Respondents Neill Hurley and John Nantz
All parties required to be served have been served.

I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is

executed on June 25, 2020.

 
   

rett Griffis
ecker Gallagher Legal Publishing, Inc.
8790 Governor’s Hill Drive, Suite 102
Cincinnati, OH 45249

(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

{

ME S- 2030

Date:
Ail. jj Ooh
Notary Public ’ wi
[seal]

 
 
 

= \ JOHN D. GALLAGHER

:%] Notary Public, State of Ohio

My Commission Expires
February 14, 2023
